    IMPLEMENTATION REVIEW OF
CONTROLS FOR GSA’S PRIVACY ACT DATA
  REPORT NUMBER A020256/O/T/F03005
       DATED JANUARY 6, 2003
    ASSIGNMENT NUMBER A060045

           January 18, 2006
Specifically, we recommended that the OCPO work together with the OCIO to improve the
management of GSA’s Privacy Act data by: (1) working with the Office of Acquisition Policy to
ensure that appropriate Privacy Act requirement clauses are included in IT support contracts
utilized by GSA and that roles and responsibilities for the protection of sensitive data are made
explicit for contractors entrusted with such data, (2) updating GSA’s Systems of Records list,
and (3) ensuring that accountability and responsibility is assigned for identifying and
implementing specific controls for each of GSA’s Systems of Records. Your office concurred
with these recommendations and has taken specific steps as delineated in the March 2003 time-
phased action plan.

Scope and Methodology

This implementation review included discussions with information security and privacy
personnel in the OCIO and the OCPO to determine if management’s action plan has been
implemented and whether conditions identified with the initial review have been resolved. We
analyzed Privacy Act clauses recently added to the Federal Acquisition Regulation (FAR),
including Parts 24 and 39. To sample the application of these Privacy Act requirements in IT
support contracts, we reviewed contracts for the Comprehensive Human Resources Integrated
System (CHRIS), the Payroll and Accounting and Reporting (PAR) system, and the GSAJobs
system. We considered applicable statutes, regulations, policies, guidance, and operating
procedures, including: the Privacy Act of 1974; Office of Management and Budget (OMB)
Circular A-130, Appendix I, Federal Agency Responsibilities for Maintaining Records About
Individuals, and Appendix III, Security of Federal Automated Information Resources, November
28, 2000; OMB’s Implementation Guidance for the E-Government Act of 2002, M-03-18,
August 1, 2003; OMB’s Guidance for Implementing the Privacy Provisions of the
E-Government Act of 2002, M-03-22, September 26, 2003; the GSA Privacy Act Program, CPO
1878.1, October 27, 2003; and Conducting Privacy Impact Assessments (PIAs) in GSA, CPO
1878.2, May 28, 2004. We also reviewed memoranda issued by the OCIO regarding the Privacy
Act, including the June 22, 2005 memo regarding GSA Privacy Act regulations and Systems of
Records notices and the July 15, 2003 memo requesting that Heads of Services and Staff Offices
and Regional Administrators provide input to update the Agency’s Systems of Records list, and
information disseminated via the Privacy Act Program website maintained by the OCPO.
Fieldwork was completed between October and December 2005.

Observations

We found that management has taken actions in accordance with the time-phased action plan in
response to our 2003 report; however, conditions raised in the previous report remain. Contracts
for two of the three systems we reviewed did not include the appropriate FAR clauses for
Privacy Act systems, and GSA’s list of Privacy Act systems, maintained by the OCPO, is still
not up-to-date. Further, roles and responsibilities for GSA associates and contractors are not yet
well defined, and training has not been provided to ensure that responsible individuals are aware
of requirements for protecting GSA Privacy Act data.




                                                2
Recommendation # 1 - Work with the Office of Acquisition Policy to ensure that
appropriate Privacy Act requirement clauses are included in IT support contracts utilized
by GSA and that roles and responsibilities for the protection of sensitive data are made
explicit for contractors entrusted with such data.

In 2003, we reported the need to specify restrictions or penalties for unauthorized disclosures and
for GSA IT service contracts to state the need to protect Privacy Act data. Since then, the Office
of Acquisition Policy has developed contract clauses covering Privacy Act information to be
used in GSA's IT support contracts, and the OCPO has issued an Order mandating Privacy Act
clauses to be used in GSA's IT support contracts. During this implementation review, we
analyzed four IT support contracts for three Privacy Act Systems: (1) PAR, (2) GSAJobs, and (3)
CHRIS. We found that two of the contracts did not include or reference the requisite FAR
clauses. Further, we were unable to verify whether biennial reviews of a random sample of
GSA's IT support contracts are being completed as required by OMB. These reviews are
important in order to ensure that the wording of each contract makes the provisions of the
Privacy Act binding on the contractor. Without appropriate contract provisions for protecting
Privacy Act data, the Agency cannot be sure that contractors are aware of restrictions on Privacy
Act data and the consequences of unauthorized disclosures.

Recommendation # 2 - Update GSA’s Systems of Record list.

We also reported that the Agency’s list of Privacy Act Systems of Records (SOR) needed to be
updated. The Privacy Act of 1974 defines a System of Record as a group of any records under
the control of any agency from which information is retrieved by the name of the individual or
by some identifying number, symbol, or other identifying particular assigned to the individual.
The OCPO has issued memoranda to Heads of Services and Staff Offices and to Regional
Administrators requesting an update of the Privacy Act SOR under their jurisdiction, and the
SOR list, as identified on the official GSA Privacy Act Program website, has been updated to
include a major system for managing human resource information. However, the SOR list is not
yet current and complete. For example, the Federal Acquisition Institute (FAI) Online system,
Federal Business Opportunities (FedBizOps), Federal Procurement Data System - Next
Generation (FPDS-NG), System for Tracking and Administering Real Property (STAR),
GSAJobs, and USA Services are not yet identified as a SOR on the Privacy Act Program
website. With the exception of GSAJobs, which is covered under an OPM Privacy Act notice,
these systems also do not have published Privacy Act notices. Privacy Act notices are required
to be published in the Federal Register to report any new use or intended use of the information
in the system and to provide an opportunity for interested persons to submit written data, views,
or arguments to the Agency. Additionally, the list of SOR identified on GSA’s Privacy Act
Program website has not been updated to remove transferred and obsolete systems, including
Classified Control Files; the Emergency Notification System; and Incident Reporting,
Investigation, Contingency Planning/Analysis, and Security Case Files. Without a complete and
accurate inventory of SOR, specific risks with these systems may not be adequately addressed.




                                                3
Recommendation # 3 - Ensure that accountability and responsibility is assigned for
identifying and implementing specific controls for each of GSA’s Systems of Records.

The need to clarify key roles and responsibilities for protecting GSA’s Privacy Act data from
unauthorized disclosure was also reported as a matter requiring management attention. At that
time, online security training for GSA Associates and contractors did not cover Privacy Act
requirements or restrictions on unauthorized disclosures of personal information entrusted to
those who work with sensitive files. Further, controls for protecting GSA's sensitive data were
not robust enough to adequately address risks in the Agency's automated business environment.
We also found that GSA web server files needed to be reviewed for sensitive data to strengthen
controls to prevent improper disclosure of Privacy Act data on GSA web servers both behind and
outside the firewall. With this implementation review, we found that the Agency has not yet
developed a Privacy Act training program, increasing the risk of inappropriate disclosure of
sensitive information. We also found that GSA has not assigned roles and responsibilities to
verify the implementation of required privacy-related controls, including the incorporation of
appropriate privacy-related clauses in IT support contracts. Consequently, it is unclear whether
privacy-related controls required by the OCPO have been consistently implemented for all GSA
Privacy Act systems. While technical controls for Privacy Act data, such as automated content
management and data leakage technologies are readily available, the Agency does not have
procedures in place to apply these beneficial tools. Moreover, general procedures are not yet in
place to ensure that controls over sensitive Privacy Act data are in place and operating as
expected.

Next Steps

It is essential that GSA associates and contractors who are increasingly relied on and entrusted
with access to Privacy Act data understand the need to safeguard this information and agree to
protect it. Since our previous review, the E-Government Act of 2002 emphasized the need to
adequately protect personal information in Federal IT systems, and OMB now requires that
Privacy Impact Assessments be conducted for IT systems that contain personal data on members
of the general public, including Government employees and contractors. Agency responsibilities
have also been expanded to fulfill Privacy Act requirements and improve the protection of
sensitive data. Given new requirements for controls for Privacy Act systems, the conditions we
observed with this implementation review, and related actions requiring additional management
attention, we recommend that you reassess the Agency’s policies and procedures for protecting
Privacy Act data. Because of increasing risks in this area, we plan to continue monitoring
controls for select SOR and Privacy Act data by conducting additional audits in fiscal year 2006.




                                               4
We would like to express our appreciation to you and your staff for your assistance and
cooperation during this implementation review. Should you have any comments or questions
about this review, please contact me or Gwendolyn McGowan, Deputy Assistant Inspector
General for Audits, Information Technology Audit Office, on (703) 308-1223.




Jennifer M. Klimes
Audit Manager (JA-T)
Information Technology Audit Office




                                           5
                   IMPLEMENTATION REVIEW OF
               CONTROLS FOR GSA’S PRIVACY ACT DATA
                 REPORT NUMBER A020256/O/T/F03005
                      DATED JANUARY 6, 2003
                   ASSIGNMENT NUMBER A060045

Attachment A – Time-Phased Action Plan to Review of GSA’s Privacy Act Data,
        Report Number A020256/O/T/F03005, Dated January 6, 2003




                                  A-1
                                      ACTION PLAN

Designated Responding Official:             Gail T. Lovelace, Chief People Officer (CPO)
Contact Person:                             Fred Alt, CPO Chief Information
                                            Officer
Telephone No.:                              202-501-2518

     AUDIT REPORT                RECOMMENDATION/                      PROPOSED
       NUMBER                     FINDING NUMBER                 RECOMMENDATION/
                                                                FINDING COMPLETION
                                                                         DATE
   A020256/O/T/F03005                        1                     September 30, 2003

RECOMMENDATION: That the Office of the Chief People Officer (C), with the
assistance of the Office of the Chief Information Officer (I), work with the Office of
Acquisition Policy (MV) to ensure that appropriate Privacy Act requirement clauses are
included in IT support contracts utilized by GSA and that roles and responsibilities for the
protection of sensitive data are made explicit for contractors entrusted with such data.

Management Response:

The Chief People Officer concurs with the findings and the recommendation.

Responsible Organizations:

   ACTION TO BE TAKEN                      SUPPORTING                DOCUMENTATION
      STEP BY STEP                 DOCUMENTATION TO BE               WILL BE SENT BY
                                          SENT TO AUDIT                LAST DAY OF
                                        RESOLUTION AND
                                     INTERNAL CONTROLS
                                             DIVISION
 1. Develop and issue             C, with    Copy of Instructional      April 30, 2003
 Instructional Memorandum         assist-    Memorandum
 addressing basic Privacy Act,    ance of
 Acquisition Policy, and IT       MV & I
 Security issues in GSA.

 2. Develop contract clauses      C, with    Copy of Contract           August 31, 2003
 covering Privacy Act             assist-    Clauses covering
 information to be used in        ance of    Privacy Act
 GSA’s IT support contracts.      MV & I     information




                                            A-2
  ACTION TO BE TAKEN                         SUPPORTING            DOCUMENTATION
     STEP BY STEP                    DOCUMENTATION TO BE           WILL BE SENT BY
                                            SENT TO AUDIT            LAST DAY OF
                                          RESOLUTION AND
                                       INTERNAL CONTROLS
                                               DIVISION
3. Issue GSA Order mandating        C, with    Copy of GSA Order   September 30, 2003
the Privacy Act clauses to be       assist-
used in GSA’s IT support            ance of I
contracts, along with policy and
guidance on roles and
responsibilities for safeguarding
sensitive information by
contractors and GSA
employees.




                                           A-3
                                  ACTION PLAN

Designated Responding Official:       Gail T. Lovelace, Chief People Officer (CPO)
Contact Person:                       Fred Alt, CPO Chief Information
                                      Officer
Telephone No.:                        202-501-2518

     AUDIT REPORT             RECOMMENDATION/                     PROPOSED
       NUMBER                  FINDING NUMBER                 RECOMMENDATION/
                                                             FINDING COMPLETION
                                                                    DATE
   A020256/O/T/F03005                   2                        August 31, 2003

RECOMMENDATION: That the CPO, with the assistance of the CIO, update GSA’s
Systems of Records List.

Management Response:

The CPO concurs with this recommendation.


  ACTION TO BE TAKEN                 SUPPORTING                   DOCUMENTATIO
     STEP BY STEP               DOCUMENTATION TO BE               N WILL BE SENT
                             SENT TO AUDIT RESOLUTION             BY LAST DAY OF
                               AND INTERNAL CONTROLS
                                       DIVISION
     1. Memorandum to        C     Copy of memorandum               June 30, 2003
 HSSOs and RAs requesting
 an update of Privacy Act
 systems of records under
 their jurisdiction.

     2. Update of Privacy    C     Notification of updated         August 31, 2003
 Act systems of records on         Privacy Act systems of
 Privacy Act website on            Records on Privacy Act
 InSite.                           website




                                      A-4
                                        ACTION PLAN

Designated Responding Official:            Gail T. Lovelace, Chief People Officer (CPO)
Contact Person:                            Fred Alt, CPO Chief Information
                                           Officer
Telephone No.:                             202-501-2518

     AUDIT REPORT                    RECOMMENDATION/                PROPOSED
       NUMBER                         FINDING NUMBER           RECOMMENDATION/
                                                              FINDING COMPLETION
                                                                       DATE
    A020256/O/T/F03005                      3                    September 30, 2003

RECOMMENDATION: That the CPO, with the assistance of the CIO, ensure that
accountability and responsibility is assigned for identifying and implementing specific
controls for each of GSA’s Systems of Records.

Management Response:

The CPO concurs with this recommendation and will work with the CIO to include the
assignment of accountability and responsibility for implementing controls for each of
GSA’s systems of records in the GSA Order that will be issued in response to
Recommendation 1. The process and due dates will be the same as for Recommendation 1.


   ACTION TO BE TAKEN                       SUPPORTING            DOCUMENTATION
      STEP BY STEP                     DOCUMENTATION TO           WILL BE SENT BY
                                        BE SENT TO AUDIT            LAST DAY OF
                                         RESOLUTION AND
                                      INTERNAL CONTROLS
                                              DIVISION
 1. Issue GSA Order mandating         C, with Copy of GSA          September 30, 2003
 the Privacy Act clauses to be        assist- Order
 used in GSA’s IT support             ance of
 contracts, along with policy and     MV & I
 guidance on roles and
 responsibilities for safeguarding
 sensitive information by
 contractors and GSA employees.




                                           A-5
                           IMPLEMENTATION REVIEW OF
                       CONTROLS FOR GSA’S PRIVACY ACT DATA
                         REPORT NUMBER A020256/O/T/F03005
                              DATED JANUARY 6, 2003
                           ASSIGNMENT NUMBER A060045

                                  REPORT DISTRIBUTION

                                                             Copies

Office of the Chief People Officer (C)                          3

Office of the Chief Information Officer (I)                     3

Office of Acquisition Policy (MV)                               1

Counsel to the Inspector General (JC)                           1

Regional Inspector General for Auditing (JA-W)                  1

Assistant Inspector General for Auditing (JA and JAO)          2

Assistant Inspector General for Investigations (JI)             1

Audit Follow-up and Evaluation Branch (BECA)                    1

Administration and Data System Staff (JAS)                     1




                                               B-1
